                                                                             .   .


                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

    Case Number: I08050034




          This investigation of an NSF award1 was opened pursuant to a proactive review focused on NSF
          awards which had No-Cost extensions denied. The investigation, which included a review of
          program records and financial documents, initially identified questionable andlor unallowable
          costs. The ~ n i v e r s i t gsubsequently was able to provide supporting documentation and an
          explanation for all the questioned costs. There was no evidence found of fraud or wrongdoing.
          Therefore, no further investigative efforts are required in this case.

          Accordingly, this case is closed.


                                                                                                     /




V
NSF OIG Form 2 (1 1/02)
